f/

"NO:

If a

1

IN THE SUPREME COURT OF THE UNITED STATES

GEORGE A CHRISTIAN, JR - PETITIONER
vs.

THE STATE OF OKLAHOMA - RESPONDENT (S)

filed
OCT I 3 2020

PETITION FOR WRIT OF CERTIORARI
APPEAL FROM OKLAHOMA COURT OF CRIMINAL APPEALS, CASE
NO. CF-2002-968

GEORGE A. CHRISTIAN, JR.
(Your Name)

Rf>. Rftx 2>oO
(Address)
ia

OK

(City, State, Zip Code)

1
(Phone Number)

QUESTION PRESENTED
Whether the State's denial of the post-conviction relief establish cause for any procedural
default to be excused and considered on this issue anew in light of Martinez.
PARTIES TO THE PROCEEDING
Petitioner, pro se:
George A. Christian Jr. # 276900, P.O. Box 260, Lexington, OK, 73051.
For Respondents: The State of Oklahoma,
Jennifer M. Hinsperger Assistant District Attorney, 320 Robert S. Kerr Ave. Ste 505, Oklahoma
City, OK 73102.
OPINION BELOW
The following opinions and orders below are pertinent here, all of which are unpublished:
[1] First Application for Post-Conviction Relief was filed on (7/29/19) district court denied
(APCR) on (4/27/20), the OCCA affirmed the district court’s denial of Petitioner’s application
for post-conviction relief. See Christian v. State, PC-2020-376 (July 17th, 2020).
JURISDICTION
The District Court of Oklahoma and the Oklahoma Court of Criminal Appeals denied
petitioner Application for Post-Conviction Relief on a claim of Ineffective Assistance of Trial
Counsel in light of Martinez v. Ryan, 132 S.Ct. 1309 (March 20, 2012), pursuant to 28 U.S.C. §
1257(a), the United States Supreme Court has jurisdiction by U.S. Sup.Ct. Rules 10(c) and 13(1)
on certiorari, to review a denial of a Post-Conviction Claim denied by a state’s highest court any
procedural default to be excused and considered on this issue anew, in light of Martinez.

1

TABLE OF CONTENTS
QUESTION PRESENTED

1

PARTIES

1

PRIOR OPINIONS AND ORDERS

1

BASIS OF JURISDICTION,

2

CONSTITUTIONAL PROVISION AND STATUTES

,2

STATEMENT OF THE CASE

2

REASON FOR GRANTING WRIT

6

CONCLUSION

15

VERIFICATION/DECLARATION UNDER PENALTY OF PERJURY

16

CERTIFICATE OF SERVICE

17

INDEX TO APPENDICES
APPENDIX-A

ORDER FROM THE OKLAHOMA COURT OF CRIMINAL APPEALS

APPENDIX-B

ORDER DENYING FIRST APPLICATION FOR POST-CONVICTION

RELIEF

l

TABLE OF AUTHORITIES
Blades v. State, 2005 OK CR 1, 107 P.2d 607

13

Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10 L. Ed 2d 215 (1963)

A

Brown v. Board of Ed. of Topeka Shawnee Kan. 347 U.S. 483 74 S.Ct. 686 (1954)

3

Bonin v. Calderon, 11 F.3d 1155, 1159 (9th Cir. 1996)..............................................

10

Boykin v. Alabama 395 U.S. 238 (1969)

3

Buck v. Davis, No. 15-8049, 2017 WL 685534, at *11 (Feb. 22, 2017)

16

Cargle v. State, 947 P.2d 584, 589 (Okl.Cr. 1997)

.4

Coleman v. Thompson, 501 U.S. 722 (1991)

9,11

Dixon v. State 2010 OK CR 3, f 5, 228 P.3d 531 532

12

Dewberry v. State, 1998 OK CR 10, 954 P.2d 774

7

Fay v. Noia, 372 U.S. 391, 430, 83 S.Ct. 822, 9 L.Ed.2d 837 (1963)

8

Gamble v. Parsons 898 F.2d 117 (10th Cir. 1990).............................

8

Halbert v. Michigan , 545 U.S., at 619, 125 S.Ct. 2582, 162 L.Ed. 2d 552 (2005)

6

Hall v. State, Okl.Cr. 1957, 306 P.2d 361, 362

12

Haley v. Cockrell 306 F.3d 257 (5th Cir.2002)

13

Haley v. Dretke 541 U.S. 386 124 S.Ct. 1847 158 L.Ed.2d 659 (2004)

14

Harper v. Virginia Dept, of Taxation, 509 U.S. 86, 90, 96 (1993)

16

Hatch v. State, 924 P.2d 284, 295-96 (Okl.Cr. 1996)

.4

Hill v. Lockhart, 474 U.S. 52, 59, 106 S. Ct. 366,370, 88 L.Ed. 2d 203 (1985)

3

Lackawanna County Disk Attorney v. Coss 532 U.S. 394 121 S.Ct 1567 (2001)

8

Lafler v. Cooper 566 U.S. 156 132 S.Ct 1376, 182 L.Ed 2d 398 (2012)

3

Lambright v. Stewart, 220 F.3d 1022 (9th Cir. 2000).............................

5,7

n

Logan v. State 2013 OK Cr 2,13, 293 P.3d 969, 973..........

14

Lopez v. Ryan, No. 09-99028, Order Dated April 26th, 2012

8

Lozoya v. State, 932 P.2d 22,31 (Okl.Cr. 1996).................

4

Mabry v. Johnson 467 u.s. 504 (1984)

5

Martinez v. Ryan, 132 S.Ct. 1309 (March 20, 2012)

2,11

McCleskey v. Zant, 499 U.S. 467,490, 111 S.Ct. 1454, 113 L.E$d2d 517 (1991)

8,16

Miller-El v. Cockrell, 537 U.S. 322, 123 S.Ct. 1029, 154 L.Ed.2d 931 (2003)

9,16

Missouri V. Frye 132 S.Ct. 1399 (2012)

3

Murray v. Carrier, 477 U.S. 478, 488 (1986)

16

North Carolina v. Alford, 400 U.S. 25 (1970)................

3

Omaha v. State, 911 P.2d 286, 307 (Okl.Cr. 1995)........

5

Page v. United States, 884 F2d 300, 302 (7th Cir. 1989))

13

Paz v. State, 852 P.2d 1355, 1357 (1993)

6

Paxton v. State, 1995 OK CR 46, f 8, 903 P.2d 325, 327

12

Plessy v. Ferguson 163 U.S. 537 16 S.Ct. 1138 (1896)

3

Reedv. Ross, 468 U.S. 1, 9, 104 S.Ct. 2901, 82 L.Ed.2d 1 (1984)

8

Rodriguez v. Carpenter, 916 F.3d 885, 904-905 (10th Cir. 2019)

16

Simpson v. State, 2010 OK CR 6, 53, 230 P.3d 888, 905-06

3

Slack v. McDaniel, 529 U.S. 473, 483-84 (2000)..................

16

Smith v. Baldwin, 510 F.3d 1127, 1146-1147 (9th Cir. 2007)

10

Smith v. State, 1980 OK CR 43, 611 P.2d 276

13

Stevens v. State 2018 OK CR 11, f 15, 422 P.3d 741, 746,

14

Strickler v. Greene, 527 U.S. 263, 289, 119 S.Ct. 1936, 144 L.Ed.2d 286 (1999)

m

8

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984)

9,10,13

Tracy v. State, 24 Okl.Cr 144, 145, 216 P. 941

12

Thomas v. State, 1995 OK CR 47, 15, 903 P.2d 328, 330

12

Trevino v. Thaler, 569 U.S. 413, 423, 133 S.Ct. 1911, 185 L.Ed.2d 1044 (2013)

14

Townsend v. Sain, 372 U.S. 293 (1963)

11

U.S. v. Cook, 45 F.3d 388 (1995)

13

United States v. Maez, 915 F.2d 1466, 1468 (10th Cir. 1990), cert denied, 498 U.S. 1104, 111
S.Ct. 1005, 112 L.Ed.2d 1087(1991)

3

United States v. Pollard, 959 F.2d 1011, 1021 (D.C.Cir) cert denied, 506 U.S. 915, 113 S.Ct.
322, 121 F.ED 242(1992)

3

Napue v. Illinois

13

Van Woudenberg v. State, 942 P.2d 224, 227 (Okl.Cr. 1997)

,4

Wainwright v. Sykes, 433 U.S., at 83, 97 S.Ct. 2497 (1977)

8

CONSTITUTIONAL PROVISION AND STATUTES
United States Constitution, Amendment XIV.
Okla. Const Art, II §§ 6 and 7
28 U.S.C. § 2254
28 U.S.C. §2244 (d)(1)
Rule 10
Rule 13
OCCA Rules 3.11(B)(3)(b)
Title 22 O.S. § 1080, subsections (a), (d), and (f),
Rule 2.1, Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch.18, App (2020);
22 O.S. §1086
22 O.S. § 1085

IV

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The right of a state prisoner to seek certiorari is guaranteed in 28 U.S.C § 2254. The
standard for relief under "AEDPA" is set forth in 28 U.S.C. § 2254(d)(1).
United States Constitution, Amendment XIV.
Okla. Const Art, II §§ 6 and 7
STATEMENT OF THE CASE
COMES NOW, George A. Christian, the Petitioner is a layman in law appearing and
proceeding pro se1 moves the court for an Order vacating and setting aside the judgment entered
in this action and all subsequent proceedings thereon, and to vacate under Martinez v. Ryan, 132
S.Ct. 1309 (March 20, 2012), pursuant to and in accord with the applicable provisions of Rule 10
is grounds for relief on certiorari and just terms, the court may relieve a party or its legal
representative from a denial of a Application for Post-Conviction Relief, final judgment, order,
or proceeding entered in this action on [ July 17th, 2020], denying him relief on certain claims
contained in the petition for the following reasons separate but equal Plessy v. Ferguson 163
U.S. 537 16 S.Ct. 1138 (1896) Brown v. Board of Ed. of Topeka Shawnee Kan. 347 U.S. 483
74 S.Ct. 686 (1954) anew in light of Martinez. The court must first determine if the defendant is
competent through interrogation of the defendant and counsel regarding past and present mental
state, as well as observation of the defendant’s demeanor before the court. Boykin v. Alabama
395 U.S. 238 (1969)The guilty plea not intelligent, the court must also advise the defendant of

Haines v. Kerner. 404 U.S. 519 (1972) holding a Pro se litigant’s pleadings are to be construed liberally and held
to a less stringent standard than formal pleadings drafted by lawyers. In Hall v. Bellmon. 935 F.2d 1106, 1110 (10th
Cir. 1991) the Court stated “we believe this [Haines pro se litigant] means that if the court can reasonably read the
pleadings to state a valid [Certiorari civil action] claim on which the plaintiff could prevail, it should do so despite
the plaintiffs failure to cite proper legal authority, his confusion with various legal theories, his poor syntax and
sentence construction or his unfamiliarity with pleading requirements. Id....and the Plaintiff whose factual
allegations are close to stating a claim but are missing some important element that may not have occurred to him,
should be allowed to amend his complaint.

2

the nature and consequences of the guilty plea, this should include advising the defendant of the
right to trial counsel, the right to a jury trial, the right to confront witnesses, the privilege against
self incrimination, and the range of punishment for the crime charged. Simpson v. State, 2010
OK CR 6, 53, 230 P.3d 888, 905-06 this court reviews the application along with supporting
affidavits to see if it contains sufficient evidence to show this court by clear and convincing
evidence that there is a strong possibility trial counsel was ineffective for failing to utilize or
identify the complained evidence. See Rule 3.11(B)(3)(b) Rules of the Oklahoma Court of
Criminal Appeals Title 22, Ch.18, App (2017). See United States v. Maez, 915 F.2d 1466, 1468
(10th Cir. 1990), cert denied, 498 U.S. 1104, 111 S.Ct. 1005, 112L.Ed.2d 1087 (1991 )(for a plea
to be valid it "must be based on the defendants intelligent conclusion that the record before the
judge contains strong evidence of actual guilt) United States v. Pollard, 959 F.2d 1011, 1021
(D.C.Cir) cert denied, 506 U.S. 915, 113 S.Ct. 322, 121 L.ED 242 (1992). North Carolina v.
Alford, 400 U.S. 25 (1970) (Guilty pleas individual states may refuse to accept guilty pleas that
accompany protestations of innocence) Lafler v. Cooper 566 U.S. 156 132 S.Ct 1376, 182 L.Ed
2d 398 (2012) was requiring the prosecution to "reoffer the plea proposal" his understanding
though was poisoned by his counsel's ineffective assistance and his plea was therefore not
knowing and voluntary, and because the defendant was not advised to the elements of the charge,
and so the plea was not "intelligent" counsel did not provide the defendant with reasonably
competent advice Missouri V Frye 132 S.Ct. 1399 (2012). The court must first determine if the
defendant is competent through interrogation of the defendant and counsel regarding past and
present mental state, as well as observation of the defendant's demeanor before the court. Boykin
v. Alabama 395 U.S. 238 (1969) The guilty plea not intelligent, the court must also advise the
defendant of the nature and consequences of the guilty plea, this should include advising the

3

defendant of the right to trial counsel, the right to a jury trial, the right to confront witnesses, the
privilege against self incrimination, and the range of punishment for the crime charged. In order
to demonstrate ineffective assistance of counsel, a petitioner must make two showings: (1)
counsel’s performance was so seriously deficient that representation fell below an objective
standard of reasonableness and was not within the range of competence demanded of attorneys in
criminal cases; and (2) but for counsel’s unprofessional errors, there is a reasonable probability
that the result of the proceeding would be different Strickland v. Washington, 466 U.S. 668,
687-88, 104 S.Ct. 2052, 2064, 80 L.Ed.2d 674 (1984), In order to satisfy the prejudice
requirement of Strickland in the context of a guilty plea, a petitioner must show that, but for the
error of counsel, he would not have pled guilty and would have instead insisted on going to trial.
Hill v. Lockhart, 474 U.S. 52. 59. 106 S. Ct. 366.370. 88 L.Ed. 2d 203 119851; Lozova v. State,
932 P.2d 22, 31 (Okl.Cr. 1996). Failure to disclose evidence is a violation of Brady v.
Maryland, 373 U.S. 83. 83 S.Ct. 1194. 10 L. Ed 2d 215 (1963).It is the burden of the party
claiming that the evidence has been withheld to show that the evidence was in, fact, withheld,”
Van Woudenbers v. State. 942 P.2d 224. 227 (Okl.Cr. 1997). The ultimate fact that there was
never a fire at all, and or no attempted fire and Juanita Brown testified to those facts and there
were no fire investigator reports to prove arson, the first responders incident reports was
exculpatory evidence within the meaning of Brady that actually exists and that the district
attorney’s office has in their possession these reports to prove that.such evidence exists and was
improperly withheld by the prosecutor’s, this claim overcomes the presumption of regularity in
court proceedings. In reference to this claim Napue v. Illinois, 360 U.S. 264 (1959) may suggest
that there is prosecutorial misconduct in failing to correct false or misleading testimony. Included
in tis principle, is the presumption that prosecutors, as officers of the court, do not suborn perjury

4

or otherwise allow false testimony to go uncorrected. Carele v. State, 947 P.2d 584, 589 (Okl.Cr.
1997); Hatch v. State„ 924 P.2d 284. 295-96 (Okl.Cr. 1996). In order to obtain relief upon such
an allegation, Petitioner bears the burden of establishing that (1) false or misleading testimony
was presented, (2) that the prosecutor knowingly used such testimony and (3) that the testimony
was material to guilt or innocence. Omaha v. State. 911 P.2d 286. 307 (Okl.Cr. 1995). When a
criminal defendant has been wrongfully advise to plead guilty to a crime he did not commit and
is actually innocent, Mabry v. Johnson 467 U.S. 504 (1984) guilty plea coerced, the state should
not be allowed to convict innocent people by any means to satisfy a conviction rate due to
ineffective assistance of counsel and prosecutorial misconduct. However, for this reason alone
his counsel made error so serious that counsel was not functioning as counsel guaranteed a
defendant by the Sixth Amendment and that counsel’s deficiencies were prejudicial to his
defense the trial court made one or more decisions which were based on an objectively
unreasonable determination of the facts and/or an unreasonable application of clearly established
law Strickland. Juanita Brown testified in preliminary hearing to all the crimes that the state has
charged in the information to CF-2002-0968, on October 15th, 2001 by clear and convincing
evidence that Mr. George A. Christian Jr. is actually innocent of all the crimes charged in the
information and that he did in fact never set any fire or attempt to set any fire. Count 1. Fourth
degree Arson, Count 2. Endangering human life during the commission of Arson, was based on
systemic racism, had the defendant been white he would have been only charged with
destruction of private property.

Represented by Attorney Kenneth Watson at preliminary

hearing on 4/29/02 by Judge Hill, and court reporter Raquel Mathis. Lou Keel targeted Mr.
Christian based on a prior conviction in 1999 where he again based on systemic racism over
charged the defendant and forced him to plead guilty to a crime he did not commit for five years

5

probation which is the beginning of his wrongful conviction. However, represented by Attorney
Kenneth Watson at pre-trial and trial and later during the plea agreement, that resulted in 3 yrs
probation, Asst. District Attorney Lou Keel has evidence held by the State to prove this claim to
exonerate Mr. Christian of this crime. Counsel has a duty to make sure there is sufficient
information here from which the district court could conclude it was not sending an innocent
man to prison See Maez. Mr. George A. Christian Jr., did not voluntary, knowing, and
intelligently agree to the plea of guilty to the fourth degree arson crime as charged on June 24th
2003 before Judge Susan Braggs due to the facts that he did not voluntary, knowing, and
intelligently understand what was being told to him at that time, However Kenneth Watson told
him he was going home and not to prison if he signed the plea agreement after failing to conduct
a reasonable pre-trial investigation. Strickland v. Washinston, 466 U.S. 668, 687-88, 104 S.Ct.
2052. 2064. 80 L.Ed.2d 674 (1984)
Petitioner pro se, George A. Christian Jr., was found guilty of count 1) Arson in the fourth
degree; of a Felony on June 9th 2003 in case #CRF-02-968, following a plea of guilty, on June
24th 2003, on December 2nd, 2005 the state filed an application to revoke suspended sentence, on
September 8th 2006 Mr. Christian entered a blind plea, the Honorable Jerry D. Bass accepted the
plea and continued the matter for sentencing, on February 26th, 2007, Judge Bass revoked
Petitioner's suspended sentence in full after it had been completed June 24th 2006, the Court of
Criminal Appeals affirmed Appellant’s conviction. After OCCA affirmed the conviction, the
(

petitioner appealed the United States Supreme Court.

6

REASON FOR GRANTING WRIT
Argument
However, the certiorari for relief from this court to reconsider its prior ruling on procedural
default under Martinez is properly brought under Federal Rule of Civil Procedure 10(c), now that
the Supreme Court has established that ineffective assistance of post-conviction counsel, while
not amounting to a separate Sixth Amendment claim, can nevertheless establish cause for the
default, this Court should reconsider its ruling and permit Christian to present evidence to
support his claim that there was cause for default. This court held, as did the Tenth Circuit, that
the claim of ineffective assistance during the combined post-conviction and appealing
proceedings were properly defaulted under the state default rule established Paz v. State, 852
P.2d 1355, 1357 (1993). However, the Supreme Court in Martinez has shown that this rule,
requiring as it does that the petitioner himself be able to recognize potential errors in the post­
conviction process, must be reconsidered as a valid rule of procedural default. Without the help
of an adequate attorney, a prisoner will have similar difficulties vindicating a substantial
ineffective-assistance-of-counsel claim. Claims of ineffective assistance at trial often require
investigative work and understanding of trial strategy. When the issue cannot be raised on direct
review, moreover, a prisoner asserting an ineffective-assistance-of-counsel claim in an initialreview collateral proceeding cannot rely on a court opinion or paper work of an attorney
addressing that claim. Halbert, 545 U.S., at 619, 125 S.Ct. 2582, 162 L.Ed. 2d 552. To present a
claim of ineffective assistance at trial in accordance with the state’s procedures, then, a prisoner
likely needs an effective attorney.
The same would be true if the State did not appoint an attorney to assist the prisoner in the
initial-review collateral proceeding. The prisoner, unlearned in the law, may not comply with th

7

State’s procedural rules or may misapprehend the substantive details of federal constitutional
law. Cf., e.g., id., at 620-621, 125 S.Ct. 2582, 162 L. Ed. 2d 552 (describing the educational
background og the prison population). While confined to prison, the prisoner is in no position to
develop the evidentiary basis for a claim of ineffective assistance, which often turns on evidence
outside the trial record Martinez, 132 S.Ct. at 1317.
In this case, because of the failures relating to trial counsel’s acts and omissions were not
fully developed in the state court proceedings. These claims include issues regarding the
presentation of evidence at both the guilt and penalty phase. For example, trial counsel employed
no defense to the fact that there was no fire and no experts prior to trial that a fire would have
been the end results and did not present potentially significant expert evidence regarding the
crime scene. In addition, neither trial counsel challenged the erroneous charges on the
presumption of innocence, reasonable doubt and alibi. While the District Court held that the
service of the sentence has been completed in Oklahoma County Case No. CF-2002-968, and
fully discharged, OCCA agreed with ruling. Lackawanna County Disk Attorney v. Coss 532
U.S. 394 121 S.Ct 1567 (2001). which shows that the petitioner is currently “in custody,” on a
conviction which had been enhanced by expired conviction. See Gamble v. Parsons 898 F.2d
117 (10th Cir 1990).
Under OCCA Rules 3.11(B)(3)(b) When a allegation of ineffective assistance of trial
counsel is predicated upon an allegation of failure of trial counsel to properly utilize available
evidence or adequately investigate to identify evidence which could have been made available
during the course of the trial, and a proposition of error alleging ineffective assistance of trial
counsel is raised in the brief-in-chief of Appellant, appellate counsel may submit an application
for an evidentiary hearing, together with affidavits setting out those items alleged to constitute

8;

ineffective assistance of trial counsel. The proposition of error relating to ineffective assistance
of trial counsel can be predicated on either allegations arising from the record or outside the
record or a combination thereof. See Dewberry v. State, 1998 OK CR 10, 954 P.2d 774. This
court will utilize the following procedure in adjudicating applications regarding ineffective
assistance of trial counsel based on evidence not in the record:
This court should have found reversible error on the merits of the instructional claims and
denying relief on the ineffective assistance of counsel claims on procedural grounds, it is
appropriate for the Court to now permit reconsideration of the claims in this case based upon
Martinez. The Ninth Circuit has vacated the judgment of the district court and remanded for
consideration of previously defaulted claims in light of Martinez, and directed the district court
to afford the petitioner an evidentiary hearing “if the district court determines that one is
warranted.” See, Lopez v. Ryan, No. 09-99028, Order Dated April 26th, 2012.
Mr. Christian seeks similar relief in this case, to permit this Court to reconsider its prior
denial of the petition on procedural default grounds. The rules for when a prisoner may establish
cause to excuse a procedural default are elaborated in the exercise of the Court's discretion.
McCleskey v. Zant, 499 U.S. 467, 490, 111 S.Ct. 1454, 113 L.E$d2d 517 (1991); see also
Coleman, supra, at 730-731, 111 S.Ct. 2546; Sykes, 433 U.S., at 83, 97 S.Ct. 2497; Reed v.
Ross, 468 U.S. 1, 9, 104 S.Ct. 2901, 82 L.Ed.2d 1 (1984); Fay v. Noia, 372 U.S. 391, 430, 83
S.Ct. 822, 9 L.Ed.2d 837 (1963), overrule in part by Sykes, supra. These rules reflect an
equitable judgment that only where a prisoner is impeded or obstructed in complying with the
State's established procedures will a federal habeas court excuse the prisoner from the usual
sanction of default. See, e.g., Strickler v. Greene, 527 U.S. 263, 289, 119 S.Ct. 1936, 144
L.Ed.2d 286 (1999); Reed, supra, at 16, 104 S.Ct. 2901. Allowing a federal habeas court to hear

9

a claim of ineffective assistance of trial counsel when an attorney's errors ( or the absence of an
attorney) caused a procedural default in an initial-review collateral proceeding, if undertaken
without counsel or with ineffective counsel, may not have been sufficient to ensure that proper
consideration was given to a substantial claim. From this it follows that, when a State requires a
prisoner to raise an ineffective-assistance-of-trial-counsel claim in a collateral proceeding, a
prisoner may establish cause for a default of an ineffective-assistance claim in two
circumstances. The first is where the state courts did not appoint counsel in the initial-review
collateral proceeding for a claim of ineffective assistance at trial. The second is where appointed
counsel in the initial-review collateral proceeding, where the claim should have been raised, was
ineffective under the standards of Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674(1984).
Under established Supreme Court jurisprudence “[fjederal habeas courts reviewing the
constitutionality of a state prisoner’s conviction and sentence are guided by rules, [including]...
the doctrine of procedural default, under which a federal court will not review the merits of
claims, including constitutional claims, that a state court declined to hear because the prisoner
failed to abide by a state procedural rule.” Id. at 1316, and accordingly as a matter of first
impression, the court held that ineffective assistance of counsel at initial review collateral
proceedings may establish cause for a prisoner’s procedural default of a claim of ineffective
assistance of counsel at initial review collateral proceedings may establish cause for a default, a
petitioner would be required to establish (1) that his initial review post-conviction lawyer (which
in this instance would be direct review appellate attorney on direct appeal that was appointed by
the same office that the trial attorney was appointed from) was ineffective under the standard of
Strickland v. Washington, 466 U.S. 668 (1984), and (2) that “the underlying ineffective-

10

assistance of trial counsel claim is a substantial one, which is to say that the prisoner must
demonstrate that the claim has some merit. Id. at 1318-1319. With respect to this latter
requirement to establish that the underlying ineffective assistance claim is substantial, the court
cited to the minimal showing needed for a certificate of appealability to issue. Id. It follows for
all the reason that the Supreme Court’s ruling in Martinez applies to Mr. Christian’s habeas
corpus proceeding. Martinez provides a road map for Christian to show cause that will excuse his
direct review attorney failures to bring or develop the factual basis of claims concerning the
ineffective assistance of trial counsel. In Oklahoma direct review is “the first occasion [at
which] to raise a claim of ineffective assistance of counsel at trial. Martinez, 132 S.Ct. at 1315.
See IC § 19-2719.
Christian is barred from developing in the federal court proceedings any of his claims that
trial counsel provided ineffective assistance of counsel because of the application of the the
existing rules of procedural default. As a result of the district court ruling in 1996, he was un able
to develop the full evidentiary basis for these claims or seek an evidentiary hearing in federal
court under pre-AEDPA standard, as set forth in Townsend v. Sain, 372 U.S. 293 (1963). Now
that the Supreme Court has established that ineffective assistance of post-conviction counsel,
while not amounting to a separate Sixth Amendment claim, can nevertheless establish cause for
the default, this Court should reconsider its prior ruling and permit Christian to present evidence
to support his claim that there was cause for default.
Christian should be permitted to engage in further discovery on the issue of post­
conviction counsel’s representation during the state consolidated collateral review and appeal
proceedings. For example, a review of the state proceedings on post-conviction demonstrates
that counsel appears to have engaged no investigators or experts. Certiorari is the proper method
for applying Martinez v. Ryan in the case the United States Supreme Court issued a opinion in
11

Martinez v. Ryan, 132 S.Ct. 1309 (March 20, 2012), In Martinez, the Court qualified its holding
in Coleman v. Thompson, 501 U.S. 722 (1991), which held that an attorney’s errors in post­
conviction proceeding typically do not qualify as cause to excuse a default, by recognizing an
exception which had not been squarely addressed in Coleman: “Inadequate assistance of counsel
at initial-review collateral proceedings may establish cause for a prisoner’s default of a claim of
ineffective assistance at trial.” Id. 1315.
Petitioner’s Federal and State Constitutional rights to due process of law has been
violated and should be granted relief on certiorari pursuant to Rules 14 and 10(c) a state court or
a United States court of appeals has decided an important question of federal law that has not
been, but should be, settled by this Court, or has decided an important federal question in a way
that conflicts with relevant decisions of this Court and the Federals Rules of Appellate Procedure
were violated to the U.S. Constitutions Fifth, Sixth, and Fourteenth Amendments and Okla.
Const. Art. II §7, Okla. Const. Art. II §21.
In this case Mr. Christian’s counsel failed to utilize the available evidence to raise the
ineffective assistance of trial counsel claim or the Brady claim Strickland v. Washington, 466
U.S. 668,104 S.Ct. 2052. 80 L.Ed.2d 674 (1984) Napue v. Illinois. 360 U.S. 264 (1959) Here
counsel was ineffective for two reasons: 1) failing to properly utilize available evidence or
adequately investigate to identify evidence which could have been available during the course of
trial and 2) failing to question any of her witnesses she subpoenaed to direct questioning during
trial especially the key witness Juantia Brown, which may suggest that there is ineffective
i

assistance of trial counsel along with prosecutorial misconduct in failing to correct perjury or
false testimony. A finding of "cause" that excuses procedural default under Martinez is
appropriate where "(1) the claim of ineffective assistance of trial counsel' was a 'substantial'
claim; (2) the cause consisted of there being 'no counsel' or only 'ineffective' counsel during the
12

state collateral review proceeding; (3) the state collateral review proceeding was the 'initial'
review proceeding in respect to the 'ineffective-assistance-of trial-counsel claim'; and (4) state
law requires that an 'ineffective assistance of trial counsel [claim] ... be raised in a initial-review
collateral proceeding.' Trevino v. Thaler, 569 U.S. 413, 423, 133 S.Ct. 1911, 185 L.Ed.2d 1044
(2013)(quoting Martinez, 566 U.S. at 17, 132 S.Ct. 1309). A claim of ineffective assistance of
trial counsel when an attorney's errors (or the absence of an attorney) caused a procedural default
in initial-review collateral proceeding acknowledges as an equitable matter, that the initialreview collateral proceeding, if undertaken without counsel or with ineffective counsel, may not
have been sufficient to ensure that proper consideration was given to a substantial claim. 566
U.S. at 14 132 S.Ct. at 1318, 182 L.Ed.2d at 285-86, The district court denied first post­
conviction on April 27th 2020, upon the grounds that the judgment and sentence of the courts has
long been satisfied, the judgment is at end, and the court was wihthout jurisdiction to modify,
suspend, or otherwise alter the judgment. In support thereof the case of Tracy v. State, 24 Okl.Cr
144, 145, 216 P. 941 This contention was also supported in the case of Hall v. State,
Okl.Cr. 1957, 306 P.2d 361, 362, an Oklahoma case wherein the court said:
"Satisfaction of the judgment and sentence in a criminal case puts and end to the court's
power over the criminal judgment."
In the present case the defendant has served his time, satisfied the judgment and sentence
of the trial court and the case is at an end. Trial court is without jurisdiction to grant relief after
the judgment had been satisfied. The petitioner was barred form raising insufficiency of evidence
to the first degree arson claims as basis for federal habeas relief of “actual innocence” see Haley
v. Cockrell 306 F.3d 257 (5th Cir.2002) to extend the actual innocence exception to procedural

13

default of constitutional claims challenging non-capitol sentencing error. Haley v. Dretke 541
U.S. 386 124 S.Ct. 1847 158 L.Ed.2d 659 (2004).
However, as finding in favor of the applicant. See 22 O.S.§ 1085 his request for an appeal
out of time should not be barred by the doctrine of laches during to his excusable sixteen-year
delay of a miscarriage of justice seeking relief See Thomas v. State, 1995 OK CR 47, 15, 903
P.2d 328, 330; Paxton v. State, 1995 OK CR 46,1 8, 903 P.2d 325, 327. The ineffective of
assistance of counsel claim on appeal should be considered See Rule 2.1, Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch.18, App (2020); Dixon v. State 2010 OK CR 3, U 5, 228
P.3d 531 532. An assertion of this error waives the bar of 22 O.S. § 1086 and resjudicata, and
any argument by the state that is barred. The petitioner's rights to appeal is dependant upon the
ability to prove he/she was denied an appeal through no fault of his/her own. See Blades v. State,
2005 OK CR 1, 107 P.2d 607; See also Smith v. State, 1980 OK CR 43, 611 P.2d 276. Thus,
making applicable under Title 22 O.S. § 1080, subsections (a), (d), and (f), a petitioner's right for
this reason alone his counsel made error so serious that counsel was not functioning as counsel
guaranteed a defendant by the Sixth Amendment and that counsel's deficiencies were predicable
to his defense the trial court made one or more decisions which were based on an objectively
unreasonable determination of the facts and/or an unreasonable application of clearly established
law Strickland. Logan v. State 2013 OK Cr 2,13, 293 P.3d 969, 973; Stevens v. State 2018 OK
CR 114 15,422 P.3d 741,746.
This Judgment should be vacated for the district court to reconsider the denial of Mr.
Christian’s application for post-conviction relief petition in light of Martinez v. Ryan, 132 S. Ct.
1309 (2011), an intervening Supreme Court decision which appears to affect Mr. Christian’s
guilt-and penalty-phase ineffective assistance of counsel claims. Specifically, the district court

14

should address: (1) the ineffective assistance of counsel claims previously found procedurally
defaulted; and (2) how Martinez applies to claims of ineffective assistance of counsel who failed
to develop a factual record during the initial post-conviction relief proceedings; and should
afford Christian an evidentiary hearing if the district court determines that one is warranted. The
district court should enter a new judgment. Previous to Martinez, district and appellate federal
courts universally understood the Supreme Court’s decision in Coleman v. Thompson, 501 U.S.
722 (1991), to hold that the negligence of a prisoner’s post-conviction lawyer would not qualify
as cause to excuse such a procedural default. Smith v. Baldwin, 510 F.3d 1127, 1146-1147 (9th
Cir. 2007) (under Coleman, attorney ineffectiveness in the post-conviction process is not
considered cause for the purpose of excusing the procedural default at that stage); Bonin v.
Calderon, 11 F.3d 1155, 1159 (9th Cir. 1996). See Harper v. Virginia Dept, of Taxation, 509
U.S. 86, 90, 96 (1993) (“[W]e hold that this Court’s application of a rule of federal law to the
parties before the Court every court to give retroactive effect to that decision.”) Martinez
provides a road map for Mr. Christian to show cause that will excuse his post- conviction
attorney’s failure to bring or develop the factual basis of claims concerning the ineffectiveness of
his trial counsel. Therefore, this Court must determine whether the failures of the post-conviction
counsel establish cause for any procedural default and consider this issue anew in light of
Martinez.
Mr. Christian "is in custody in violation of the Constitution or laws or treaties of the
United States." See U.S.C. § 2254(a), and the "cause for the default and actual prejudice as a
result of the alleged violation of federal law" or that a "fundamental miscarriage of justice" will
result from dismissal of the claim. Coleman v. Thompson, 501 U.S. 722, 750 (1991). absence
the effectiveness of counsel on post-conviction the ineffectiveness of counsel claim has been

15

exhausted and meritorious. See Rodriguez v. Carpenter, 916 F.3d 885, 904-905 (10th Cir.
2019).The cause standard requires a petitioner to "show that some objective factor external to
the defense impeded ... efforts to comply with the state's procedural rules." Murray v. Carrier,
All U.S. 478, 488 (1986). Factors supporting "cause" include previously unavailable evidence,
a change in the law, and interference by state officials. Id. The "fundamental miscarriage of
justice" exception only applies where petitioner proffers evidence of actual innocence.
McCleskey v. Zant, 499 U.S. 467, 494 (1991). Petitioner has stated and that the issues raised
are debatable among jurist, that could resolve the issues differently, or that the questions
deserve encouragement to further proceedings. Buck v. Davis, No. 15-8049, 2017 WL 685534,
at *11 (Feb. 22, 2017) (quoting Miller-El v, Corkrell. 537 U.S. 322, 336-38 (2003)); Slack v.
McDaniel, 529 U.S. 473, 483-84 (2000) a jurists could debate whether (or, for that matter,
agree that) claim(s) issuable for COA. The state of Oklahoma has violated appellant’s due
process rights, and Appellant have exhausted administrative remedies and exhausted judicial
remedies, and his original Post-Conviction falls under Martinez for review of certiorari.

CONCLUSION
For these reasons, it is respectfully requested that this Court grant relief for Certiorari
and order full briefing, reverse the judgment barring the Application for Post-Conviction Relief
to CF-2002-968 and remand the matter to the district court for an evidentiary hearing, and /or
grant the writ requested for appeal purpose.
'Pro-se

16

